 Pension Benefit Guaranty Corporation
       Office of Inspector General
              Audit Report




PBGC Needs to Improve Controls to Better
Protect Participant Personally Identifiable
             Information (PII)




            September 16, 2010
                                      2010‐09 / IT‐09‐67
                                Pension Benefit Guaranty Corporation
                                                               Office of Inspector General
                                                1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                                  September 16, 2010

TO:             Richard Macy
                Acting Chief Information Officer

FROM:
                Joseph A. Marchowsky
                Assistant Inspector General for Audit

SUBJECT:        PBGC Needs to Improve Controls to Better Protect Participant Personally
                Identifiable Information (PII)


This report describes the findings identified during our audit of protections over Personally
Identifiable Information (PII) in the Actuarial Calculation Toolkit (ACT). We initiated this audit
based on a whistleblower complaint alleging that PBGC plan participant data was being transferred
to an unsecured application that was non-compliant with applicable information technology security
standards. Our audit objective was to evaluate the whistleblower’s concerns dealing with the
protection of PII in ACT, including determining whether PBGC had taken steps to ensure that ACT
met Federal Information Security Management Act (FISMA) requirements and best practices.

We found that ACT is a critical system to PBGC’s mission, and its core function. The lack of system
controls has put the PII for approximately 1 million participants at risk. The report discusses our
findings and recommendations to ensure PBGC develops and implements controls to protect PII in
ACT.

PBGC agreed with all recommendations and we concurred with the Corporations corrective actions.
We look forward to evaluating PBGC’s implementation of the controls necessary to better secure
participant PII and we would like to take this opportunity to express our appreciation for the
cooperation we received while performing this audit.



.
OIG Report AUD-2010-9 / IT-09-67
RESULTS IN BRIEF
The Personally Identifiable Information (PII) for approximately 1 million1 participants is currently at
risk because PBGC has not implemented adequate controls in its automated Actuarial Calculation
Toolkit (ACT). PBGC management acknowledged that the disclosure, modification, or loss of
access to ACT data would have a serious adverse impact on the Corporation. Nevertheless, ACT
was incorrectly classified as a minor system -- “a tool kit” -- and the Corporation did not perform
the security assessment mandated by federal standards or take needed actions to mitigate risk.

We initiated this audit based on a whistleblower complaint alleging that PBGC plan participant data
was being transferred to an unsecured application that was non-compliant with applicable
information technology security standards. The complainant also asserted that the Chief
Technology Officer (CTO) had issued a waiver permitting PBGC to delay compliance with Federal
Information Security Management Act (FISMA) requirements. Our audit confirmed that PBGC
was transferring data to a non-compliant application. However, we found no evidence that a waiver
of the type reported by the whistleblower had been issued.

For PBGC, the calculation of an individual participant’s final pension benefit is a core function.
PBGC relies on one of two systems for this important actuarial calculation – Ariel, a system
administered by a Canadian firm and located on servers in Canada and ACT, a PBGC developed
application resident on PBGC’s network in Washington, DC. In 2008, PBGC concluded that Ariel
was requiring so many resources, in terms of both staff time and money (8 years and $31 million),
that the Corporation determined to begin the process of transitioning pension plan participant
information from Ariel into ACT.

ACT is a customized Microsoft product and is currently PBGC’s primary system for calculating a
participant’s final pension benefit. ACT is a spreadsheet-based system. Each participant’s data is
entered in a row or number of rows (depending on the number of data items needed). Within these
rows, actuaries build programs and calculations that use available pension data to calculate the
participant’s final benefit amount. While PBGC management has recognized ACT’s security
limitations, to date the agency has not taken proactive steps to mitigate those weaknesses.

PBGC’s decision to transition away from Ariel was an appropriate one, given the system’s high cost
and the scope-creep the project encountered. However, the decision to transition from Ariel to
ACT should have been coupled with a comprehensive analysis of ACT’s security controls, with
special emphasis on those controls intended to protect PII, such as participant Social Security
numbers. Furthermore, PBGC should have identified and implemented compensating controls to
mitigate risk. For instances in which risk could not be reasonably mitigated, the risks should have
been documented, analyzed and accepted as necessary.  

The results of our audit disclosed:

       •    ACT, a system critical to PBGC’s mission and core function, had no risk assessment,
            security plan or privacy impact assessment.


1   Estimates vary up to 1.3 million, as noted in the annual PBGC Management Report


OIG Report AUD-2010-9 / IT-09-67                                                                  Page 1
   •   ACT is not scanned on a periodic basis; the system shares the same vulnerabilities as the
       PBGC network. In Fiscal Years 2008 and 2009 OIG reported a significant number of high
       and medium vulnerabilities on the PBGC network.
   •   PBGC computers used in the transfer of ACT data and ACT backup tapes were not
       encrypted, thereby putting PII data at risk.
   •   ACT’s database files were not always password protected. As a result, loss or theft of ACT
       data could compromise participant PII.

We recommend that PBGC:

   •   Identify all Microsoft Access files that are not password protected and immediately
       implement password and access controls to ensure the protection of participant PII.

   •   Reclassify ACT as a major system and complete a Certification and Accreditation review
       based on FIPS 199, NIST standards and OMB guidance including risk identification,
       assessment and mitigation.

   •   Review the facts surrounding PBGC’s incorrect classification of ACT as a minor application
       and document a determination of whether additional controls over the classification process
       are needed.

   •   Conduct scanning on a periodic basis and timely mitigate vulnerabilities in accordance with
       NIST guidance.

   •   Implement encryption on all PBGC laptops and storage media that handle PII.
 
Agency Response:

In its September 9, 2010 response to the draft report PBGC concurred with the report findings and
recommendations. See Appendix D for PBGC’s full response.

OIG Evaluation of Agency Response:

We accept PBGC’s decision for the five recommendations included in this report. PBGC informed
OIG that management has already completed the necessary steps to resolve recommendation 1 and
has password protected 584 databases. OIG will follow-up on PBGC’s corrective actions for
recommendation 1 and the other recommendations outlined in this report. We appreciate PBGC’s
cooperation throughout this audit.
 
 




OIG Report AUD-2010-9 / IT-09-67                                                             Page 2
Table of Contents

Results In Brief ........................................................................................................................... 1
Background and Objectives ...................................................................................................... 4
Participants’ Personally Identifiable Information Is At Risk ...................................................6
Recommendation 1 .................................................................................................................. 10
Recommendation 2.................................................................................................................. 10
Recommendation 3.................................................................................................................. 11
Recommendation 4.................................................................................................................. 11
Recommendation 5.................................................................................................................. 12
APPENDIX A - Scope and Methodology ............................................................................... 13
APPENDIX B - Comparison of Information System Inventory Survey (ISIS) vs. PBGC
Information Assurance Handbook (IAH) Policy ................................................................... 14
APPENDIX C - FIPS 199 Chart .............................................................................................. 15
APPENDIX D - PBGC Response ........................................................................................... 17
 




OIG Report AUD-2010-9 / IT-09-67                                                                                                    Page 3
Background and Objectives
Background

The Pension Benefit Guaranty Corporation (PBGC) protects the retirement incomes of nearly 44
million American workers in more than 29,000 private-sector defined benefit pension plans. PBGC
was created by the Employee Retirement Income Security Act of 1974 to encourage the
continuation and maintenance of private-sector defined benefit pension plans, provide timely and
uninterrupted payment of pension benefits, and keep pension insurance premiums at a minimum.
Defined benefit pension plans promise to pay a specified monthly benefit at retirement, commonly
based on salary and years on the job.

PBGC pays monthly retirement benefits, up to a guaranteed maximum, established by law. The
Corporation calculates benefits using ACT, a Microsoft based application that resides on PBGC’s
network. ACT is used by 110 actuaries to calculate benefits and generate benefit statements.
Approximately 3,500 plans and 1 million participant valuations have been calculated using ACT.

ACT captures and stores PII information, such as name, Social Security Number (SSN), hire date
and retirement date, in a Microsoft Access database. Benefit calculations are performed using
Microsoft Excel spreadsheets. Access is a small database system, which allows users to create a
small-medium sized database with minimum security features; Access is not a true Database
Management System.

The Office of Management and Budget (OMB) defines PII as information that can be used to
distinguish or trace an individual’s identity, such as their name or SSN, alone, or when combined
with other personal or identifying information linked or linkable to a specific individual, such as date
and place of birth.

From 1996 to 2004, ACT served as PBGC’s primary valuation system. In 1999, PBGC recognized a
number of drawbacks with the spreadsheet approach and decided to replace ACT with a new
valuation system called Ariel. PBGC management believed that Ariel would improve the timeliness
of benefit determinations and improve the reliability and security of participant data. PBGC then
contracted with a Canadian firm to develop and implement Ariel. Agency officials initially believed
Ariel would replace the ACT application, with the result that ACT would be used only in limited
cases. However, ACT’s usage did not significantly decline, despite the agency’s direction that
valuations should be calculated using Ariel, as shown by the chart below.




OIG Report AUD-2010-9 / IT-09-67                                                                Page 4
By 2008, development and implementation costs for Ariel exceeded $31 million. Due to Ariel not
delivering expected performance gains, the Corporation made a decision to transition back to ACT,
the system first used in 1996. PBGC was aware that ACT presented information technology
security challenges. PBGC’s own cost benefit analysis highlighted ACT’s security limitations.
Additionally, OIG’s report2 addressing Ariel’s development and cost also highlighted ACT’s security
weaknesses. Nevertheless, PBGC did not take action to adequately mitigate the risk or to classify
ACT appropriately, in light of the extensive PII it contained.

Objectives

Our audit objective was to evaluate concerns raised by the whistleblower dealing with protection of
PII in ACT, including determining whether PBGC had taken steps to ensure that ACT met FISMA
requirements and best practices. Specific objectives included:
    1. Assessing PBGC’s management of the data transition from Ariel to ACT; and
    2. Determining whether the Chief Technology Officer had issued a waiver to delay compliance
       with FISMA for the ACT system.
Audit fieldwork was performed from October 2009 through June 2010. The audit was conducted in
accordance with Generally Accepted Government Auditing Standards and applicable OIG policies
and procedures. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our conclusions
based on our audit objectives.

2See OIG Report Ariel Application System Post Implementation Audit, (Report # 2007-7/IT-0020, August 21, 2007)
http://oig.pbgc.gov/audit/2007/pdf/IT-0020.pdf


OIG Report AUD-2010-9 / IT-09-67                                                                                 Page 5
Finding and Recommendations
Participants’ Personally Identifiable Information is at Risk.

PBGC has not implemented adequate controls to protect the Personally Identifiable Information
(PII) in its automated Actuarial Calculation Toolkit (ACT). Because ACT was classified as a minor
system, “a tool kit,” the Corporation did not perform the security assessment mandated by federal
standards. As a result the PII of approximately 1 million participants is currently at risk for
improper review and disclosure.

Agency officials describe ACT as a system used by actuaries to value pension plans and calculate
benefits for individual participants. ACT is a series of PBGC customized Microsoft applications
designed to meet its unique business processes. Valuations for entire plans are stored in Microsoft
Access databases and contain participants PII such as Social Security Number (SSN), name, date of
hire, date of birth and salary information. The Corporation utilizes Microsoft Excel spreadsheets
(which also contain PII) to calculate an individual participant’s final benefit.

OIG reviewed the Information System Inventory Survey (ISIS) and PBGC Information Assurance
Handbook (IAH) Volume 18 Section II “Inventory Management Procedures” and determined that
PBGC did not abide by its own policy and procedures. In direct contradiction with PBGC’s own
policies, agency officials classified ACT as a minor system. According to PBGC’s IAH Volume 18-
Section II “Inventory Management Procedures,” minor information systems may not contain,
process or transmit Personally Identifiable Information and must address the minimum control
baseline required by its FIPS-199 security category.

The ISIS includes PBGC’s justification for classifying ACT as a minor system. The ISIS is an
information collection tool used to assist in the identification and characterization of PBGC
information resources. The ISIS was prepared by the Office of Information Technology (OIT) with
little or no collaboration with key stakeholders. Further, management did not maintain supporting
documentation to support ACT’s classification as a minor application. According to PBGC
management the ISIS mainly serves as a working document and system categorization worksheet for
the system owner(s). That is, the basis for the decision to categorize a system containing PII for
approximately 1 million participants was undocumented; further, no evidence existed that the
decision was subject to any supervisory review.

Federal Information Processing Standards (FIPS) 199 states: “The security categories are based on
the potential impact on an organization should certain events occur which jeopardize the
information and information systems needed by the organization to accomplish its assigned mission,
protect its assets, fulfill its legal responsibilities, maintain its day-to-day functions, and protect
individuals. Security categories are to be used in conjunction with vulnerability and threat
information in assessing the risk to an organization.”

We also observed that PBGC classified ACT as a moderate potential impact under each of the three
FIPS security objectives: confidentiality, integrity and availability.




OIG Report AUD-2010-9 / IT-09-67                                                              Page 6
    •   Confidentiality
        The unauthorized disclosure of information could be expected to have a serious adverse
        effect on organizational operations, organizational assets, or individuals.
    •   Integrity
        The unauthorized modification or destruction of information could be expected to have a
        serious adverse effect on organizational operations, organizational assets, or individuals.
    •   Availability
        The disruption of access to or use of information or an information system could be
        expected to have a serious adverse effect on organizational operations, organizational assets,
        or individuals. (See Appendix C for a complete listing of FIPS 199 classifications)

As noted by the FIPS categorizations, PBGC felt that the disclosure, modification or loss of access
to ACT data would have a serious adverse effect to the agency. Despite the classification PBGC
failed to complete a risk assessment, security plan or privacy impact assessment.


ACT files are not password protected.

During our review we worked with PBGC personnel to test ACT’s access controls. As part of that
effort, we were able to circumvent the password control(s). ACT was designed to prompt users for
a password when attempting to open the Microsoft Access file (mdb) directly (i.e. not through the
Archive/ACT interface). OIG noted that some Microsoft Access files were not password protected
and could be viewed simply by clicking on the file. Therefore, if an ACT file was ever lost or stolen
a perpetrator would have full access to all the PII associated with an entire plan. Generally, each
Microsoft Access file contains an entire plan.

PBGC responded to OIG’s inquiries stating that the passwords were not intended to restrict access
rather it was designed to protect unintentional actuarial data errors. PBGC officials explained that
the passwords were designed to ensure that actuaries modify ACT data only through the tool rather
than making changes in the source file (Access database). PBGC stated that agency officials will
ensure going forward that all newly created ACT database files have a password.

OIG also observed that ACT does not have adequate logging and monitoring controls. Specifically,
ACT does not have an automated mechanism in place to document who accessed files, what records
were reviewed, added or modified, what changes to formulas were made or whether data was
downloaded to an unauthorized form of media (i.e. unencrypted thumb drive).

Data integrity and confidentiality should be enforced by access controls. Protecting PII such as
names, dates of birth and SSNs in federal systems is critical because its loss or unauthorized
disclosure can lead to serious consequences for individuals. These consequences include identity
theft or other fraudulent activity, which can result in substantial harm, embarrassment, and
inconvenience to both the individual and PBGC.




OIG Report AUD-2010-9 / IT-09-67                                                               Page 7
PBGC did not complete a Certification and Accreditation on ACT

PBGC has not fully assessed the risk associated with using ACT as the agency’s primary valuation
system. The Privacy Act of 1974 and the E-Government Act of 2002 require federal agencies to
protect personal information, including ensuring its security. Additionally, the Federal Information
Security Management Act of 2002 (FISMA) requires agencies to develop, document, and implement
agency wide programs to provide security for their information and information systems (which
include PII and the system on which it resides).

In 2008 due to Ariel’s high cost3 PBGC made a decision to transition back to ACT. At a minimum
in 2008, agency officials should have reclassified ACT as a major system and performed the security
assessments required by Office of Management and Budget (OMB) Circular A-130 Appendix III
and PBGC requirements. This did not occur and as a result PBGC has not adequately secured PII
in ACT.

National Institute of Standards and Technology (NIST) Special Publication 800-30 “Risk
Management Guide for Information Technology Systems” states that risk management plays a
critical role in protecting an organization’s assets and therefore its mission from IT related-risk.
NIST describes risk management as the process of identifying risk, assessing risk and taking steps to
reduce risk to an acceptable level.

ACT is classified as a toolkit in the Benefit Calculation Application (BCA) Ariel suite. We reviewed
the security plan, risk assessment and privacy impact assessment for the BCA Ariel suite and
determined that these documents only make brief references to ACT while Ariel is discussed in
detail. It should also be noted that ACT and Ariel do not share the same system boundaries. Ariel
is administered by a Canadian company, Morneau Sobeco and the system is located on servers in
Canada. In contrast, ACT is a PBGC developed application secured by PBGC’s network in
Washington, DC; therefore, both systems should not be included in the same suite of applications.
Because ACT serves as the primary valuation system for PBGC and supports core mission
functions, a full certification and accreditation of the system is needed. See chart below for a
comparison of PBGC Actuarial Systems:

                                                                Ariel                                    ACT
Number of Plans                                          195 plans (1 active)                         3534 plans4
Number of Participants                                  Approximately 217,300                    Approximately 1 million
Developed by                                              Morneau Sobeco                                PBGC
Documented Access Control                                     In place                                   None
Documented Audit and Accountability                           In place                                   None
Documented Certification and                                  In place                                   None
Accreditation
Documented Configuration                                          In place                                   None
Management
Documented Contingency Planning                                   In place                                   None

3 See OIG Report Ariel Application System Post Implementation Audit, (Report # 2007-7/IT-0020, August 21, 2007)
http://oig.pbgc.gov/audit/2007/pdf/IT-0020.pdf
4 PBGC officials reported.




OIG Report AUD-2010-9 / IT-09-67                                                                                  Page 8
Documented Identification and                                       In place                                     None
Authentication
Documented Incident Response                                        In place                                     None
Documented Maintenance                                              In place                                     None
Documented Media Protection                                         In place                                     None

In a GAO report, Identity Theft-Governments Have Acted to Protect Personally Identifiable Information, but
Vulnerabilities Remain (GAO 09-759T, June, 2009), GAO states:

         …it is important for agencies to safeguard their systems against risks such as loss or
         theft of resources (such as federal payments and collections), modification or
         destruction of data, and unauthorized uses of computer resources or to launch
         attacks on other computer systems. Without such safeguards, sensitive information,
         such as taxpayer data, Social Security records, medical records, and proprietary
         business information could be inappropriately disclosed, browsed, or copied for
         improper or criminal purposes including identity theft.

PBGC did not complete a risk assessment on ACT and without a comprehensive risk assessment,
management is unable to ensure the security of participants PII in ACT. Additionally PBGC cannot
take action to mitigate identified risks.

ACT is not scanned periodically

ACT is not scanned on a periodic basis and shares the same vulnerabilities as the PBGC network.
OIG met with several agency officials who told us “ACT is as secure as the PBGC network.” OIT
security management informed us that system scans are not performed on ACT because it is not an
application and “the tool” resides on the PBGC General Support System (GSS). Had ACT been
classified as a major application NIST guidance would have required periodic scanning; PBGC
instead incorrectly relied on the scans of the GSS. During the FY 2009 FISMA review OIG
contracted with an Independent Public Accounting (IPA) firm to scan the PBGC network for
vulnerabilities. These scans identified a significant number of high and medium vulnerabilities,
including in the GSS, some of which we previously reported earlier this year5. Thus, reliance on the
security of the GSS is misplaced.

Moreover, the IPA identified persistent computer security weaknesses that continue to jeopardize
the security of the PBGC network and PII. System scan results should be included as part of an
overall risk assessment. When scans are not performed, known threats and vulnerabilities may not
be identified and mitigated. ACT is equally secure as the PBGC network, according to agency
officials. Based on our audit work, ACT data is at risk of being lost, stolen and otherwise
compromised.

Laptop and storage media are not encrypted

During our review we observed PII data being transferred from Ariel to ACT via an unencrypted
laptop. We were informed that PII data is immediately removed after being uploaded to the PBGC

5See OIG Report Fiscal Year 2009 Vulnerability Assessment, Penetration Testing and Social Engineering Report (Report # Eval-
2010-6/GA-09-64-6, March 2, 2010) http://oig.pbgc.gov/audit/2010/pdf/FA-09-64-6.pdf


OIG Report AUD-2010-9 / IT-09-67                                                                                     Page 9
network, where ACT resides. While data is encrypted (using Citrix technology) during transmission,
the use of laptop without encryption6 to transfer PII potentially exposes the data to unauthorized
theft or loss.

PBGC has experienced the loss of unencrypted PII data. In July 2008 an employee of a PBGC
contractor left a thumb drive with unencrypted PII data in a commuter train parking lot. Although
this data did not come from ACT this incident shows the potential risk of transporting unencrypted
PII.

OMB memorandum M-06-16 “Protection of Sensitive Agency Information” directs agencies to verify that
existing organizational policy adequately addresses the information protection needs associated with
PII that is accessed remotely or physically removed. In addition, M-06-16 recommends that
agencies use a NIST checklist included in the memorandum. The NIST checklist states that agencies
should verify that information requiring protection is appropriately categorized as such and that it is
assigned an appropriate risk and impact.

Recommendations


Recommendation 1:
Identify all Microsoft Access files that are not password protected and immediately implement
password and access controls to ensure the protection of participant PII. (OIG Control Number
OIT-112)

PBGC Response:

          Management agrees with the recommendation to password protect all ACT
          databases and has already completed this work. Until we put boundaries around the
          ACT files, we are limited in our ability to put further access controls in place.

OIG Evaluation: We concur with PBGC’s response.

Recommendation 2:
Reclassify ACT as a major system and complete a Certification and Accreditation review based on
FIPS 199, NIST standards and OMB guidance including risk identification, assessment and
mitigation. (OIG Control Number OIT-113)

PBGC Response:

          Management agrees in general with this recommendation. However, steps are
          required before we can accurately classify ACT and complete a C&A. Until
          boundaries are in place, the classification of ACT cannot be properly done (the


6Encryption can be used to protect data “at rest”, such as files on computers and storage devices. The International Information
Systems Security Certification Consortium (issuers of the Certified Information Systems Security Professional, CISSP) defines
encryption as: the use of algorithms to encode data in order to render a message or other file readable only for the intended recipient.




OIG Report AUD-2010-9 / IT-09-67                                                                                             Page 10
       current boundary is the General Support System). We are working through
       prioritizing the work with all of the other OIT initiatives that are underway.

       Additionally, PBGC will need to evaluate the availability and timing of a new
       solution after ACT. PBGC will need to judge whether the effort, time and cost to
       perform a full C&A on ACT (once boundaries are put in place) is prudent if a new
       solution will be available within an acceptable timeframe. PBGC will document that
       decision, if it comes to this. As timing becomes more definitive on all of the above,
       we will update OIG on progress.

OIG Evaluation: We concur with PBGC’s response.

Recommendation 3:
Review the facts surrounding PBGC’s incorrect classification of ACT as a minor application and
document a determination of whether additional controls over the classification process are needed.
(OIG Control Number OIT-114)

PBGC Response:

       Management suggests that as an alternative to the recommendation is to
       acknowledge that additional controls are needed over the classification process. We
       are working on redoing our Information Assurance Handbook and the Registration
       Process for systems. It is envisioned that classification determinations will need to be
       signed off by the System Owner and the CIO (or Deputy CIO) as added controls.
       The revised Information Assurance Handbook and the new Registration Process
       should be in place by December 2010.

OIG Evaluation: We concur with PBGC’s response.

Recommendation 4:
Conduct scanning on a periodic basis and timely mitigate vulnerabilities in accordance with NIST
guidance. (OIG Control Number OIT-115)

PBGC Response:

       Management agrees with this, but again, this can only be done once a boundary can
       be established for the ACT files. Until that time, ACT files must rely on the scanning
       done for the General Support Systems.

OIG Evaluation: We concur with PBGC’s response.




OIG Report AUD-2010-9 / IT-09-67                                                               Page 11
Recommendation 5:
Implement encryption on all PBGC laptops and storage media that handle PII. (OIG Control
Number OIT-116)

PBGC Response:

       Management agrees with this recommendation and is working to complete this by
       the end of December 2010 for laptops as well as external storage media that BAPD
       employees and contractors use to transport PII data.

OIG Evaluation: We concur with PBGC’s response.




OIG Report AUD-2010-9 / IT-09-67                                                          Page 12
APPENDIX A - Scope and Methodology
We initiated this audit after receipt of a whistleblower complaint. The whistleblower alleged that participant
data was being transferred to an unsecured, non-compliant application (ACT). In addition the complainant
stated that the Chief Technology Officer (CTO) issued a waiver permitting PBGC to delay compliance with
the Federal Information Security Management Act (FISMA) requirements.

Our audit objective is to address concerns raised by a whistleblower dealing with protection of PII
in ACT, including determining whether PBGC has taken steps to ensure that ACT meets FISMA
requirements and best practices. Work was performed at the Pension Benefit Guaranty Corporation
Headquarters in Washington D.C. To accomplish our objectives we:

   •   Conducted Interviews of management and Staff;
   •   Reviewed Prior Years’ Audit Reports;
   •   Reviewed Laws and Regulations;:
   •   Reviewed PBGC Policy and Procedures.

The audit was conducted in accordance with Generally Accepted Government Auditing Standards
and in accordance with the OIG policies and procedures. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our conclusions based on our audit objectives.




OIG Report AUD-2010-9 / IT-09-67                                                              Page 13
APPENDIX B – Comparison of Information System Inventory Survey (ISIS) vs. PBGC
Information Assurance Handbook (IAH) Policy

Information Reported in the          ACT               PBGC IAH Policy:
ISIS:                                classification:
ACT contains information that        Minor System      FOIA is a statutory obligation to which
the disclosure of which is                             PBGC is required to abide; therefore, the
prohibited by a federal statute                        Senior Agency Information Security
other than the Freedom of                              Officer (SAISO) considers information
Information ACT (FOIA)                                 protected by the FOIA as “Major
                                                       Information” requiring special
                                                       management attention. There are also
                                                       myriad federal laws that exempt categories
                                                       of information from disclosure. The
                                                       policies underlying these exemptions are
                                                       varied but the rationale for exemption is
                                                       that certain information in the possession
                                                       of the federal government should remain
                                                       confidential and not be disclosed to the
                                                       public. Therefore, the confidentiality of
                                                       this information must be protected from
                                                       disclosure when stored electronically.
                                                       Because Federal policy dictates that this
                                                       information must be protected from
                                                       disclosure, systems containing
                                                       information covered by these laws will
                                                       generally require special management
                                                       attention.

The system (ACT) contains PII        Minor System      A PBGC information system with the
within any database records, files                     following characteristics may be
or documents.                                          determined to be a major information
                                                       system: A key resource, or critical
                                                       infrastructure, or critical infrastructure
                                                       information, or …contains Privacy Act or
                                                       Personally Identifiable Information (PII)




OIG Report AUD-2010-9 / IT-09-67                                                         Page 14
APPENDIX C - FIPS 199 Chart
The chart below from FIPS 199 summarizes the potential impact definitions for each security
objective—confidentiality, integrity, and availability.

                                      POTENTIAL IMPACT
          Security Objective                    LOW         MODERATE                   HIGH
 Confidentiality                        The unauthorized  The unauthorized       The
 Preserving authorized restrictions on disclosure of      disclosure of          unauthorized
 information access and disclosure,     information could information could      disclosure of
 including means for protecting         be expected to    be expected to         information
 personal privacy and proprietary       have a limited    have a serious         could be
 information.                           adverse effect on adverse effect on      expected to
 [44 U.S.C. § 3542]                     organizational    organizational         have a severe
                                        operations,       operations,            or catastrophic
                                        organizational    organizational         adverse effect
                                        assets, or        assets, or             on
                                        individuals.      individuals.           organizational
                                                                                 operations,
                                                                                 organizational
                                                                                 assets, or
                                                                                 individuals.
 Integrity                               The unauthorized    The unauthorized    The
 Guarding against improper               modification or     modification or     unauthorized
 information modification                destruction of      destruction of      modification or
 or destruction, and includes ensuring   information could information could destruction of
 information non-repudiation and         be expected to      be expected to      information
 authenticity.                           have a limited      have a serious      could be
 [44 U.S.C. § 3542]                      adverse effect on   adverse effect on   expected to
                                         organizational      organizational      have a severe
                                         operations,         operations,         or catastrophic
                                         organizational      organizational      adverse effect
                                         assets, or          assets, or          on
                                         individuals.        individuals.        organizational
                                                                                 operations,
                                                                                 organizational
                                                                                 assets, or
                                                                                 individuals.
 Availability                            The disruption of   The disruption of   The disruption
 Ensuring timely and reliable access     access to or use of access to or use of of access to or
 to and use of information.              information or an   information or an   use of
 [44 U.S.C. § 3542]                      information system information system information or
                                         could be expected could be expected an information
                                         to have a limited   to have a serious   system could be
                                         adverse effect on   adverse effect on   expected to


OIG Report AUD-2010-9 / IT-09-67                                                          Page 15
                                   organizational   organizational   have a severe
                                   operations,      operations,      or catastrophic
                                   organizational   organizational   adverse effect
                                   assets, or       assets, or       on
                                   individuals.     individuals.     organizational
                                                                     operations,
                                                                     organizational
                                                                     assets, or
                                                                     individuals.




OIG Report AUD-2010-9 / IT-09-67                                           Page 16
APPENDIX D – PBGC Response




  OIG Report AUD-2010-9 / IT-09-67   Page 17
OIG Report AUD-2010-9 / IT-09-67   Page 18
OIG Report AUD-2010-9 / IT-09-67   Page 19
OIG Report AUD-2010-9 / IT-09-67   Page 20
OIG Report AUD-2010-9 / IT-09-67   Page 21
OIG Report AUD-2010-9 / IT-09-67   Page 22
If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
